4'

IN THE SUPREME COURT OF THE UNITED STATES

No.

2c. - lolj

CYRUS MARK SANAI,
Petitioner,
v.
D. JOSHUA STAUB, an individual; FREDERICK BENNETT,
an individual; PHU CAM NGUYEN, an individual;
CHRISTOPHER MCINTIRE,
Respondents,
IN THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
NO. 19-55427
CYRUS MARK SANAI,
Petitioner,

FILED
JAN 2 1 2021

V.

MARK BORENSTEIN, an individual;
Respondent,

sup^iSl^yf

IN THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
NO. 19-55429
PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

CYRUS SANAI
SANAIS
9440 SANTA MONICA BOULEVARD #301
BEVERLY HILLS, CA 90210
Telephone (310) 717-9840
cyrus@sanaislaw.com

1

QUESTIONS PRESENTED
1. Did the Ninth Circuit Court of Appeals err
when it refused to follow the unanimous holdings of
the Sixth Circuit, Seventh Circuit, Eleventh Circuit
and Federal Circuit that federal judges have an
obligation to disclose on the record information which
the parties or their lawyers might consider relevant
to the question of disqualification?
2. Do federal judges have an obligation to
disclose on the record information about personal or
professional relationships with a defendant or
witness in a case where such information is explicitly
requested by a party?
3. Do federal judges have an obligation to
disclose on the record information about their past
and current relationship to a disgraced former
federal judge who is a defendant in a lawsuit along
with his colleagues who retaliated against a litigant
for disclosing the former federal judge’s misconduct
and whose whistleblowing played a critical role in his
downfall?
4. Does the Ninth Circuit’s decision that a
District Court Judge was not required to recuse
himself in a case where a defendant previously was
the District Court’s lawyer and defended him in state
and federal court in a personal capacity, in direct
conflict with published precedent from the same
District and other Circuits and state courts,
constitute reversible error?
5. Did the the Ninth Circuit erred in finding that
Younger abstention applied to a case premised on

11

state court bias and conflict of interest of specific
state court judges because the bias did not arise from
a direct financial interest in the litigation?
6. May an interlocutory order relating to judicial
recusal and disclosure be appealed in an appeal from
the final judgment of dismissal for intentional refusal
to serve the complaint, or must it be re-challenged by
a post-judgment motion to vacate under F.R.C.P. 60?

iii

PARTIES TO THE CASE
This petition is in respect of two related cases
with different defendants.
The plaintiff appellant and petitioner is CYRUS
SANAI, an individual in both cases
The Defendants in the first filed case, Sanai v.
Staub, Central District of California no. 18-cv-02136
and Ninth Circuit no. 19-55427 are D. JOSHUA
STAUB, FREDERICK BENNETT, PHU CAM
NGUYEN, and CHRISTOPHER MCINTIRE, all
individuals. None of them were served a summons
and complaint or appeared.
The Defendants and Respondents in the secondfiled case, originally filed as Sanai v. McDonnell,
Central District of California no. 18-cv-05663 and
Ninth Circuit no. 19-55429 are Los Angeles County
Sheriff JAMES MCDONNELL and Los Angeles
County Superior Court Judge MARK BORENSTEIN
in their individual and official capacities. During the
litigation McDonnell lost an election and was at the
request of Sanai dismissed without prejudice. See
App. B.

IV

TABLE OF CONTENTS
QUESTIONS PRESENTED............................

i

PARTIES TO THE CASE.................................

m

TABLE OF CONTENTS....................................

IV

TABLE OF AUTHORITIES............................

x

PETITION FOR A WRIT OF CERTIORARI

2

ORDERS BELOW................................................

4

BASIS FOR JURISDICTION............................

5

RELEVANT CONSTITUTIONAL AND
STATUTORY PROVISIONS AND RULES.... 5
STATEMENT OF THE CASE

5

A. Sanai v. Staub...............
5
1. The Lawsuit and Defendant Frederick Bennett
5
2. The Trial Court Judge was a Client of the
Defendant......................................................... 10
3. The Motions to Recuse in the District Court 11
4. The Proceedings in the Court of Appeals... 12
B. Sanai v. McDonnell (now Sanai v.
Borenstein)....................................................... 12
1. The District Court Proceedings................. 12
2. The Appellate Proceedings......................... 17

WHY THE PETITION SHOULD BE
GRANTED............................................ 18
A. The Ninth Circuit Court of Appeals’
Refusal to Recognize a Duty of Disclosure
Conflicts with the Published Decisions of the
Sixth, Seventh, Eleventh and Federal
18
Circuits.

V

B. The Ninth Circuit Court of Appeals
History of Enabling Open Sexual Harassment
Requires Imposition of a Duty of Disclosure
to Protect Whistleblowers and Judicial
Employees.......................................................... 20
B. The Panel Decision Conflicts with the
Published Ninth Circuit Decisions Regarding
Younger Abstention
27
CONCLUSION.............

32

VI

TABLE OF CONTENTS OF APPENDIX

APPENDIX

Document

Page

APPENDIX A

Memorandum
Order of the Ninth
Circuit Court of
Appeals Filed
April 13, 2020 in
Appeal 19-55427,
Sanai v. Staub

A1

APPENDIX B

Memorandum
Order of the Ninth
Circuit Court of
Appeals Filed
April 13, 2020 in
Appeal 19-55429,
Sanai v.
Borenstein

B1

APPENDIX C

Order Denying
Petition for
Rehearing Filed
Filed September
24, 2020 in Appeal
19-55427, Sanai v.
Staub

Cl

APPENDIX D

Order Denying
Petition for
Rehearing Filed
Filed September

D1

Vll

24, 2020 in Appeal
19-55429, Sanai v.
Borenstein
APPENDIX E

Order of District
Court Denying
Motion to Vacate
entered January
25, 2019 in Sanai
v. Staub, Case #18cv-02136

El

APPENDIX F

Order of District
Court Dismissing
Action entered
November 5, 2018
in Sanai v. Staub,
Case #18-cv-02136

FI

APPENDIX G

Order of District
Court Denying
Motion for
Disclosure entered
March 21, 2018 in
Sanai v. Staub,
Case #18-cv-02136

G1

APPENDIX H

Order of District
Court Denying
Motion for
Disqualification
entered March 20,
2018 in Sanai v.

HI

Vlll

Staub, Case #18cv-02136
APPENDIX I

Order of District
Court Denying
Motion to Vacate
entered March 26,
2019 in Sanai v.
Borenstein, Case
#18-cv-05663

II

APPENDIX J

Order of District
Court Granting
Motion for
Dismissal entered
March 26, 2019 in
Sanai v.
Borenstein, Case
#18-cv-05663

J1

APPENDIX K

Order of District
Court Denying
Motion for Recusal
entered October
24, 2018 in Sanai
v. Borenstein, Case
#18-cv-05663

K1

APPENDIX L

Order of District
Court Denying
Motion for
Disclosure entered
October 17, 2018

LI

IX

in Sanai v.
Borenstein, Case
#18-cv-05663

APPENDIX M

Motion for
Disclosure and
Recusal of Ninth
Circuit Judges
filed October 9,
2019 in Appeal 1955427, Sanai v.
Staub

Ml

APPENDIX N

Motion for
Disclosure and
Recusal of Ninth
Circuit Judges
filed December 2
2019 Appeal 1955429, Sanai v.
Borenstein

N1

APPENDIX O

Request for
Judicial Notice
filed May 27, 2020
in Appeal 1955429, Sanai v.
Borenstein

01

APPENDIX P

Relevant Statutes
and Rules

PI

X

TABLE OF AUTHORITIES
Cases
Al-Torki v. Kaempen, 78 F.3d 1381 (9th Cir. 1996).. 12
Am. Textile Mfrs. Inst., Inc. v. Limited, Inc., 190 F.3d
729 (6th Cir. 1999)..................
2,18
AmerisourceBergen v. Roden,
495 F.3d 1143 (9th Cir. 2007)
27
Atkinson Dredging Co. u. Henning, 631 So.2d 1129
(Fla C. A. 1994)........................................................... 19
Ceats, Inc. v. Continental Airlines, Inc., 755 F. 3d
2, 18
1356 (Fed. Cir. 2014)........................................
Cheney v. U.S. Dist. Ct. for D.C., 541 U.S. 913
19
(Scalia, J.)............................................................
Gilbertson v. Albright, 381 F.3d 965 (9th Cir. 2004) 27
In Re Kozinski, 2d Circ. Jud. Council, Dock. No. 1790118-jm, February 5, 2018
24
In re Kozinski, Docket No. 03-08-90030, Third Circuit
Judicial Council, June 5, 2009
23
In Re Murguia, Tenth Judicial Council Order 10-1890022............................................................................ 25
Kugler v. Helfant, 421 U.S. 117 (1975)..................... 30
Liljeberg v. Health Services Acquisition Corp.,
486 U.S. 847 (1988)................................................... 11
Listecki v. Official Comm, of Unsecured Creditors,
780 F.3d 731 (7th Cir. 2015)
3,19
Porter v. Singletary, 49 F.3d 1483 (11th Cir. 1995)....2
Potashnick v. Port City Const. Co.,
4, 12, 20
609 F. 2d 1101 (5th Cir. 1980)...........
Rapp v. Van Dusen,
350 F.2d 806 (3d Cir. 1965 en banc)..
20
See Atkinson Dredging Co. v. Henning,
4
631 So.2d 1129 (Fla C. A. 1994)........

XI

Smith v. Sikorsky Aircraft,
420 F.Supp. 661 (C.D.CA 1976)
4, 20
Smith v. Sikorsky Aircraft, 420 F.Supp. 661 (C.D.Cal
1976)
19
Texaco v. Chandler, 354 F.2d 655 (10th Cir.1965) ...20
Statutes
28 U.S.C.
28 U.S.C.
28 U.S.C.
42 U.S.C.

§1254(1)
§2201....
§455......
§1983....

6
14
2, 6,22,24
6, 14

Other Authorities
C. Demondson, “Former Clerk Alleges Sexual
Harassment by Appellate Judge”, N. Y. Times,
February 14, 2020..................................................
25
J. Donohue, “I Was a Federal Judge. My Former
Colleagues Must Stop Attending Federalist Society
Events,” Slate.com, November 12, 2019, found at
slate.com/news-and-politics/2019/ll/federalistsociety-federal-judges-unethical.html.........
3,21
M. Behrens & J. Shiffman, “The Teflon Robe,
Reuters, June 30, 2020, found at
www.reuters.com/investigates/section/usa-judges/
26
M. Zapatosky, “Nine more women say judge
subjected them to inappropriate behavior,
including four who say he touched or kissed them,”
The Washington Post, December 15, 2017
24
M. Zapotosky, “Prominent appeals court Judge Alex
Kozinski accused of sexual misconduct,” The
Washington Post, Dec. 8, 2017..........................
24
Register of Action for B154321 at courts.ca.gov.......11
S. Harris, Letter to Counsel in Colorado Department
of State v. Micheal Baca, et al. (March 10, 2020).. 19

Xll

www.fjc.gov/history/judges/klausner-robertgJudge . 10
www. metne ws. com/article s/late030802. htm
10
Rules

FRCP 60(b)(6).................................................

12

Constitutional Provisions

U.S. Const., Amend. V, § 1............................

5

1
In The

Supreme Court of the United States
CYRUS MARK SANAI,
Petitioner,
v.
D. JOSHUA STAUB, an individual; FREDERICK BENNETT, an
individual; PHU CAM NGUYEN, an individual; CHRISTOPHER
MCINTIRE,
Respondents,
IN THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
NO. 19-55427
CYRUS MARK SANAI,
Petitioner,
v.
MARK BORENSTEIN, an individual;
Respondent,
IN THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
NO. 19-55429
PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

On Petition for a Writ of Certiorari to the Ninth Circuit Court of Appeals

2
PETITION FOR A WRIT OF CERTIORARI

This petition involves, among other issues, a conflict between the Ninth Circuit
Court of Appeals and the Sixth, Seventh, Eleventh and Federal Circuit Courts of
Appeals regarding a critical issue of judicial integrity: whether

disclosure by a

judge of facts that might give grounds for recusal motion is required. This issue can
arise where a judge knows facts which, on their own or together with other facts,
would be relevant to the question for disqualification. It can also arise where a
party provides admissible evidence of a past or existing professional or personal
relationship between a federal judge and a party to or witness in the the litigation,
and requests the federal judge disclose the relationship, including whether it is still
ongoing. A third scenario, which is particularly associated with the Ninth Circuit,
is where the a party blows the whistle on judicial misconduct and seeks to forestall,
as former Circuit Judge Reinhardt clerk Olivia Warren testified, the consequences
of “alienating his powerful network of clerks....[and] that the judge would exact
revenge on me.”
The Sixth and Eleventh Circuit have answered this question in the
affirmative. Am. Textile Mfrs. Inst., Inc. v. Limited, Inc., 190 F.3d 729, 741 (6th Cir.
1999); Porter v. Singletary, 49 F.3d 1483, 1489 (11th Cir. 1995).

The Seventh

Circuit has agreed that the obligation to uncover conflicts and disclose them is on
the jurist. Ceats, Inc. v. Continental Airlines, Inc., 755 F. 3d 1356 (Fed. Cir. 2014)
(magistrate judge has duty to disclose relationship with law firm under obligations
analogous to 28 U.S.C. §455).

All circuits agree this includes an obligation to

disclose matters partially or wholly in the public record. Am. Textile Mfrs. Inst.,

3
Inc., supra at 742 (6th Cir.1999) (quoting Porter v. Singletary, 49 F.3d 1483, 1489
(11th Cir. 1995)); Listecki v. Official Comm, of Unsecured Creditors, 780 F.3d 731,
750-1 (7th Cir. 2015).
There is quite simply no principled argument that disclosure is not required,
for the reasons articulated in Listecki and Am. Textile Mfrs. Inst., Inc., supra.
While this Court is not bound by lower court interpretations, it nonetheless has
historically followed the same practice.
The Ninth Circuit Court of Appeals and the district courts it supervises reject
this authority. This is particularly concerning because of the historical record of
sexual harassment by two of its most prominent members, disgraced former Chief
Judge Alex Kozinski, and his best friend the late Circuit Judge Stephen Reinhardt,
and the enablement and protection of this misconduct by their colleagues. Both
Kozinski and Reinhardt, were serial sexual harassers for decades, with the full
knowledge of the Circuit Judges in Pasadena and on the Judicial Council. See, e.g.
J. Donohue, “I Was a Federal Judge. My Former Colleagues Must Stop Attending
Federalist Society Events,” Slate.com, November 12, 2019.
The efforts to expose and restrain Judge Kozinski spanned over two decades,
and Petitioner Sanai was one of the key players who sought to expose him, along
with the late head of the Administrative Office of the Courts, L. Ralph Mecham.
Indeed, as discussed below, this petition is one of many legal and administrative
proceedings and legislative hearings that emerged from Judge Kozinski’s
misconduct and eventual exposure.

Though Sanai also informed the world that

Reinhardt engaged in similar conduct (and protected Kozinski), it was not until a
Congressional hearing last year in which one of Reinhardt’s clerks, Olivia Warren,

4
recounted Reinhardt’s sexual harassment and rage at the treatment of his friend
that these accusations were given public credence.
Sanai filed motions for disclosure and recusal in both cases prior to the case
being assigned to a panel. App. M-O.

One of the judges assigned to the Ninth

Circuit panel, Paul Watford, is a former clerk of former judge Kozinski. Id.

Judge

Watford and the other panel members refused to recuse or disclose his current
relationship with Kozinski. App. A-B.
But the failure to disclose was not only that the Ninth Circuit level. The District
Court judge to which the cases were assigned, R. Gary Klausner, had previously
been defended in litigation against him by an attorney, Frederick Bennett, who was
a defendant in the first filed case and a necessary witness in the second case.
Published authority provides that in this situation, the judge must recuse himself
under 28 U.S.C. §455. Smith v. Sikorsky Aircraft, 420 F.Supp. 661 (C.D.CA 1976).
Smith has been followed by state and federal courts. See Atkinson Dredging Co. v.
Henning, 631 So.2d 1129 (Fla C. A. 1994); Potashnick v. Port City Const. Co., 609 F.
2d 1101 (5th Cir. 1980).

ORDERS BELOW
The orders of the Ninth Circuit Court of Appeals affirming the District Court
and denying the petitions for rehearing and rehearing en banc are set forth in
Appendices (“App.”) A-D. Certain relevant orders of the District Court are set out
in App. E-J, with orders for Sanai v. Staub first in reverse chronological order, then
orders of Sanai v. Borenstein in reverse chronological order. Motions for disclosure

5
and disqualification filed in the Ninth Circuit Court of Appeals are set out in App.
M-N.
BASIS FOR JURISDICTION
The Ninth Circuit Court of Appeals issued its decisions affirming the orders of
dismissal of the District Court and denying post judgment motions on April 13,
2020.

App. A-B.

Timely Petitions for Rehearing and Rehearing en Banc were

denied on August 24, 2020. App. C-D. Petitioner invokes this Court’s jurisdiction
under 28 U.S.C. §1254(1).

RELEVANT CONSTITUTIONAL AND STATUTORY PROVISIONS AND
RULES
The relevant statutory and constitutional provisions and judicial rules are set
forth in App. P, and include the Fifth Amendment to the United States
Constitution, 28 U.S.C. §455, 42 U.S.C. §1983, and 28 U.S.C. §2201.

STATEMENT OF THE CASE
A.

Sanai v. Staub
1. The Lawsuit and Defendant Frederick Bennett

The complaint in the first case, Sanai v. Staub, case no. 18-2136 has two
related causes of action, for violation of civil rights under 42 U.S.C. §1983 and a
declaratory judgment arising from bad faith prosecution of a claim of civil contempt
for failure to comply with a jurisdictionally void order. [Docket #1.] It included the
following allegations regarding defendant Frederick Bennett:

6
4.
Defendant, FREDERICK BENNETT (“BENNETT’), is an
attorney who is the lead “Court Counsel” for the Los Angeles County
Superior Court..... He represents and has represented current judges of
the Superior Court and a judge who was elevated to the Court of
Appeals, Elizabeth Grimes (“Grimes.”).....

COMMON ALLEGATIONS
7.
The first “Court Counsel” hired was defendant
BENNETT. Once the authority to set up a separate legal function
within the Superior Court was approved, the same cabal of judges
created two other functions for his office that County Counsel had
never performed. The first function was to completely centralize the
disposition of all motions for disqualification with BENNETT. He
became the internal arbiter of whether or not a trial court judge was
required to disqualify himself or herself under the peremptory and forcause procedures set forth in Cal. Code Civ. Proc. §170.1-6. If a
disqualification statement for cause were presented, BENNETT was
originally directed to appear as counsel for the judge and fight the
motion. After Plaintiff challenged that practice, BENNETT would
ghost write standard responses. The second function of the office was
to designate and track individuals and entities which challenged the
conduct of the judges of the Court or who embarrassed the judges of
the Court by reversing trial court judges repeatedly in the same or
related cases or successfully disqualified the judges for cause. The
responsibility of Court Counsel to handle “vexatious or difficult”
litigants is part of the official description of the job.
8.
Court counsel are technically self-employed lawyers who
bill for time as inside-outside counsel. Where necessary Court Counsel
will hire law firms to represent the interests of the Superior Court.
Much of this work is typical legal work for any governmental entity.
However, the Superior Court will, when its interests in a case are
threatened, engage counsel to tell the Superior Court judge what to
rule.......
9.
When a litigant or a lawyer is identified as a “vexatious or
difficult” litigant or lawyer, Court Counsel will open up a file and
monitor the activities of such litigant or lawyer, with the aim of
ensuring that the litigant or lawyer does not succeed in any cause
brought before the Superior Court, and to look for opportunities to

7
designate the litigant as a “vexatious litigant” formally or informally,
or to concoct fake charges of litigation misconduct to impose punitive
measures on them. This practice includes contacting and coordinating
with lawyers in private practice and who represent government
entities to jointly attack targeted lawyers and litigants.
11.
In order to impose punitive measures on a Special Case or
ordinary “difficult” litigant or lawyer, the Court Counsel must act
through judges and commissioners who are assigned cases involving
such targets....
[18-2136 Docket #1]
The lawsuit alleged that Bennett was instructed to retaliate against
Sanai by then Los Angeles County Superior Court trial judge Elizabeth
Grimes, after Sanai had her thrown off of a case for bias by the Court of
Appeal. This rebuke caused her pending appointment to the Court of Appeal
to be put on hold for five years..
19.
Sanai research Grimes’ background and discovered that
she was co-owner of small empire of apartment buidlings in Los
Angeles developed by her husband, Ron Toews. She and her husband
had a direct financial interest in seeing Sanai’s lawsuit be dismissed,
and indeed her husband’s buildings used UDR’s services. Sanai filed a
disqualification for cause statement in in 2003 against Grimes based
on her financial interest, and the fact that her law firm had
represented a defendant that UDR has forced into the litigation, The
Irvine Company. BENNETT formally appeared in the litigation as
attorney for Grimes and filed an opposition. The case was transferred
for determination in the Orange County Superior Court by Judge
McEachen. The disqualification statement that McEachen reviewed
was not the disqualification statement filed by Sanai, but a document
fraudulent altered by the Superior Court clerk’s office under the
supervision of BENNETT. Judge McEachen denied the
disqualification, making assertions about the contents of the altered
disqualification document that did not reflect the facts asserted and
demonstrated by Plaintiff.

8
21.
Grimes imposed six figure attorney fees against Sanai
after allowing Saltz’s firm relief from missing the deadline for filing.
This ruling was based on Grimes’ hatred of Sanai. As the Court of
Appeal pointed out: “The trial court commented: “Plaintiff has
proliferated needless, baseless pleadings that now occupy about 15
volumes of Superior Court files, not to mention the numerous briefs
submitted in the course of the forays into the Court of Appeal and
attempts to get before the Supreme Court, and not one pleading
appears to have had substantial merit. The genesis of this lawsuit,
and the unwarranted grief and expense it has spawned, are an
outrage.””. Sanai v. The U.D. Registry, Inc., B170618 February 16,
2005 Cal. App. 2 Dist. unpublish.) at 31 fn. 36. In this appeal..... the
Second Appellate District took apart Judge Grimes legal analysis step
by step. In doing so, it mocked Grimes reflexive citation of cases that
contradict her analysis: “The suggestion the holding in Sanabria v.
Embrey, supra, 92 Cal.App.4th 422, is limited to voluntary dismissals
from which there is no right of appeal, and therefore does not apply in
this case because Mr. Sanai could appeal from the final orders of
dismissal entered in favor of the Irvine Entities, even if otherwise
intelligible, is belied by the analysis in Sanabria itself.....” Sanai v.
The U.D. Registry, Inc., B170618 (February 16, 2005 Cal. App. 2 Dist.
unpublish.) at 18-19 fn 22.
22.
In the appeal addressing the final judgment, Sanai
reversed every single ruling of the trial court adverse to him. Sanai v.
Saltz 2005 WL 151401 (Cal.App. 2 Dist). After again quoting the
language of Grimes, castigating Sanai, it disqualified Grimes in the
interests of justice under Code Civ. Proc.§ 170.1(c).
23.
After Sanai prevailed, he wrote a letter to Grimes dated
June 29, 2005 demanding that she retract and apologize for her
statement castigating him, as Sanai knew it would be used against
him in other contexts. Grimes was infuriated, not only because of her
humiliation, but also because she was in 2005 being evaluated by the
Judicial Nomination Evaluation Commission (the “JNE Commissio”)
for elevation to the Court of Appeal. In California the JNE
Commission issues letters to randomly selected attorneys asking for
feedback on judicial nominees and prepares a report. Grimes’
application received significant negative responses from defense
counsel who had appeared before her when she was assigned to
criminal courts, and her nomination was in serious trouble. The
disqualification for cause made further progress on her nomination

9
impossible. Grimes demanded that Sanai be identified as a Special
Case by Court Counsel and that full efforts be made to (1) prevent
Sanai from succeeding in Sanai v. Saltz on remand, and (2) to disbar or
otherwise cripple Sanai as an attorney.
24.
BENNETT filed a bar complaint dated July 7, 2005,
claiming, among other things, that Judge Grimes was a “represented
party” and that SANAI had violated professional responsibility rules
by contacting her ex parte without notice to him, as her counsel, or the
other side.
26.
The California Bar Association investigated BENNETT’s
first bar complaint and found it frivolous and unsupported by the
actual facts. At the instruction of Grimes and the presiding judge at
the time, BENNETT began looking for other grounds to file bar
complaints against Sanai. He contacted the junior Saltz, who put him
in contact with an attorney, William Gibbs, who was then litigating a
family dispute against Sanai in Washington State. In an email dated
August 9, 2005, BENNETT acknowledged filing a bar complaint
against Sanai on behalf of Grimes and the Superior Court, and agreed
to file go directly to the Chief Trial Counsel of the California Bar
Association to get Sanai disbarred. BENNETT directly contact the
Chief Trial Counsel, complained about the inaction on the first
complaint, and attached his emails correspondence with Gibbs.
Contrary to California Court Rules, no notice of this action by the
Superior Court was given to Sanai and he would not learn about it
until 2015. The Bar Association ignored this illegal, secret report.
39.
While proceedings were ongoing in the Superior Court,
Judge Grimes had utilized her contacts in the federal judiciary to
cause Judge Alex Kozinski to attack Sanai in print in 2005. Sanai filed
misconduct complaint against Kozinski, pointing to his use of his
private server to distribute derogatory information about Sanai.
Circuit Judge Schroeder, then the Chief Judge, issued an order in 2006
finding that Kozinski did not have any private server. Sanai filed
judicial misconduct complaints against Kozinski and Schroeder, then
discovered the pornography directory of Judge Kozinski’s server while
the Ninth Circuit Judicial Council was ignoring the second judicial
misconduct complaint. Sanai revealed this information to the Los
Angeles Times which printed an article. Kozinski filed a misconduct

10
complaint against himself, which resulted in a travesty of an
investigation. Sanai filed additional misconduct complaints against
Kozinski, Schroeder, and other judges who were participating in
related misconduct, including covering up his distribution of
pornography. The Ninth Circuit Judicial Council issued an order
reprimanding Sanai, then Circuit Executive Cathy Catterson put
maximum pressure on the California Bar Association to prosecute
Sanai for misconduct.
40.
Jane Kim, the newly appointed Chief Trial Counsel,
overruled prior Chief Trial Counsel’s and instigated proceeding against
Sanai as requested by the Ninth Circuit Judicial Council and
regarding Sanai v. Saltz. The Judicial Council refused to provide any
records concerning Sanai’s complaints and refused to allow anyone
from the Court to testify. After presentation of the Chief Trial
Counsel’s case in 2014, in 2015 the California Bar Court dismissed the
charge, finding that to the extent that it could determine the contents
of the misconduct complaints filed by Sanai, they were clearly justified.
As the world knows, Sanai’s additional accusations against Kozinski
which the Judicial Council refused to investigate were last year
confirmed by clerks and one other federal court judge, and Kozinski
resigned in disgrace.
[18-2136 Docket No. 1]
2.

The Trial Court Judge was a Client of the Defendant

The action was assigned to Judge R. Gary Klausner, who was prior to
appointment to the federal bench a presiding judge of the Los Angeles County
Superior Court. See www.fjc.gov/history/judges/klausner-robertgJudge. Bennett
worked for Judge Klausner; one of Bennett's duties is to prepare pleadings in all
disqualification motions for judges in the Los Angeles County Superior Court. In
Infant & Nutritional Products, Inc. v. Sup. Ct. (B154321 Div. 7 2nd App. Dist.
Unpub.) Bennett defended a decision of Judge Klausner regarding a peremptory
disqualification. See www.metnews.com/articlesAate0308Q2.htm. See Register of

11
Action for B154321 at courts.ca.gov. Bennett also represented Judge Klausner as
counsel of record in at least two federal lawsuits, Rudder v. Klausner, CACD Case
No. 93-cv-03790, and Thymes v. Klausner, No. 2:94-cv-05715-IH-AJW.

[18-2136

Docket #13, Sanai Decl.f 5; Exhibits A-C thereoto.]
3. The Motions to Recuse in the District Court
After Judge Klausner was assigned, motions to recuse him were filed. [182136 Docket #8, 11] The motions were denied on the grounds that there were not
specific facts of the past and future relationship set out. [18-2136 Docket #12, App.
H.] Sanai then moved for Judge Klausner to disclose the facts of his relationship
with Bennett. [Docket #16, 17.] Klausner denied the motion. [18-2136 Docket #19,
App. G.]
Judge Klausner issued an order for dismissal for failure to prosecute the
lawsuit by non-service. [18-2136 Docket #20, App. F.] Sanai responded that the
grounds for non-service was the refusal of Judge Klausner to recuse.

[Docket #21.]

An order of dismissal was entered. [18-2136 Docket #22.]
A motion to vacate the order of dismissal on the grounds that Judge Klausner
was required to recuse and disclose, and having failed to disclose, must in any event
recuse or, in the alternative, enter judgment, was filed. [Docket #23.] The Court
entered judgment. [Docket #27.] On February 25, 2019-28 days after ENTRY of the
judgment-a motion seeking to vacate the judgment of dismissal was filed under
Fed. R. Civ. P. 60(b)(6), citing Liljeberg v. Health Services Acquisition Corp., 486
U.S. 847, 863, (1988). [18-2136 Docket #29.] This was denied on March 26, 2019.
[18-2136 Docket #29, App. E.]

12
A timely appeal was perfected.
4.

The Proceedings in the Court of Appeals

Sanai filed an unopposed brief in his appeal of Staub, docket no. 19-55427,
arguing that Judge Klausner had a duty to disclose his relationship with defendant
Bennett.
Though the Ninth Circuit has held that on appeal from a dismissal for failure
to prosecute, earlier-entered interlocutory orders are not subject to review “whether
the failure to prosecute is purposeful or is a result of negligence or mistake, ” Sanai
argued that this should not apply to orders for disqualification as a matter of due
process. Al-Torki v. Kaempen, 78 F.3d 1381, 1386 (9th Cir. 1996). But this
argument was not necessary for Sanai to prevail, as he also filed a post-judgment
motion to vacate the judgment under FRCP 60(b)(6) based on Judge Klausner’s
refusal to disclose and recuse, which is explicitly permitted under Liljeberg, supra,
at 863-4. On October 9, 2019 Sanai filed a motion to recuse a majority of the judges
of the Ninth Circuit, and the twelve circuit judges as to whom Sanai has not
determined a reason for disqualification or any judge who refused to recuse, for
specific disclosures to be made. App. M.
B.

Sanai v. McDonnell (now Sanai v. Borenstein)
1.

The District Court Proceedings

The complaint in the second filed action, Sanai v. McDonnell (now Sanai v.
Borenstein), case no. 18-5663, has three causes of action, only the second and third
of which are relevant here. The second cause of action was under 42 U.S.C. §1983,

13
and the third cause of action was for a declaratory judgment under that statute and
under 28 U.S.C. §2201.
After the original complaint was filed, a motion for temporary restraining
order and a temporary injunction was filed. [Docket #1 (complaint), Docket #4
(motion for preliminary injunction and temporary restraining order)]. The motion
was denied by Judge Wilson, who summarized the case on August 1, 2018 as
follows:
On June 27, 2018, Plaintiff Cyrus Sanai filed a complaint and an
ex parte application for a Temporary Restraining Order (“TRO”) and
Preliminary Injunction against Defendants Sheriff James McDonnell
and Judge Mark Borenstein. Dkt. 4. The Court denied Plaintiffs
request for a TRO on the ground that he did not show irreparable
harm, as required. Dkt. 11. For the reasons stated below, the Court
now DENIES Plaintiffs request for a preliminary injunction.
II. FACTUAL BACKGROUND
Plaintiff alleges that several federal and state judges, including
former Ninth Circuit Judge Alex Kozinski, Justice Elizabeth Grimes of
the California Court of Appeal, and Judge Borenstein of the Superior
Court, have engaged in a nearly twenty-year vendetta to “destroy [him]
professionally.” Dkt. 4 at 11:17-18.
Plaintiff is presently attorney of record for the plaintiff in a
Superior Court matter captioned as United Grand Corporation v.
Malibu Hillbillies, LLC, et al., Los Angeles Superior Court Case No.
BC554172. Certain matters in the state court proceedings have been
assigned to Judge Borenstein.
During the course of the state court proceeding, Judge
Borenstein imposed monetary sanctions, which Plaintiff contends were
the result of the “vendetta” against him. Dkt. 4 at 24-26. After Plaintiff
failed to pay the sanctions, Judge Borenstein ordered a contempt trial,
found Plaintiff liable for contempt....
[18-5663 Docket #33 at 1-2.]

14
Judge Wilson then made his first mistake of many. He found that “after
Plaintiff exhausted his appeals to the California Court of Appeal and the California
Supreme Court - issued a bench warrant for Plaintiffs arrest.” Id. This finding of
fact was not supported by substantial evidence, and was repudiated by Judge
Klausner.
Judge Wilson rejected the argument that the Rooker-Feldman doctrine
applied. [18-5663 Docket #33 at 3 (bold emphasis added).]
Here Judge Wilson demonstrated his confusion—the pending writ petitions
were the appellate challenge to the contempt judgment.
Judge Wilson denied the motion on grounds of Younger abstention and
judicial immunity. Sanai filed a motion to amend the preliminary injunction
findings of facts and conclusions of law, pointing out that the Court had failed to
acknowledge the extraordinary circumstances and biased tribunal exceptions, and
that judicial immunity is immunity from damages, not immunity from a declaratory
judgment or subsequent injunctive relief. [Docket #38.] This was denied
summarily. [18-5663 Docket #40.]
Motions to dismiss were filed. [18-5663 Docket #30, #39.] These motions
were thwarted by the filing of a First Amendment Complaint. [Docket #41.] A
related case notice was filed by Defendants, and the case was transferred to Judge
Klausner. [Docket #43, #47.] New motions to dismiss were filed. [Docket #44-5.]
Oppositions were filed. [Docket #53-4.]
Sanai then filed a motion for disclosure by Judge Klausner of his relationship
with, and knowledge of the facts regarding Bennett. Bennett appeared throughout
the First Amended Complaint and had an entire section of the complaint devoted to

15
him with allegations that paralleled those in the first complaint, quoted above. [185663 Docket #41 at 3-7.] In this case, Bennett was a necessary witness. [18-5663
Docket #64 at 2-5.]
The motion was denied. [18-5663 Docket #65.] Sanai then filed a motion for
disqualification arguing that the combination of the prior representation by
Bennett of Klausner with Judge Klausner’s refusal to disclose anything about it was
grounds for disqualification. [18-5663 Docket #66.] The motion was denied by
Judge Snyder. [18-5663 Docket #68.]
Judge Klausner granted the motions to dismiss, but altered the repeated
mischaracterization by Judge Wilson of the state court appellate proceedings:
Plaintiff is currently subject to a contempt order in Superior
Court of Los Angeles County("Superior Cout"), and a bench warrant
has been issued for his arrest. Following the contempt hearing,
Plaintiff filed petitions for writ of mandate, writ of habeas cmpus, and
a stay of the contempt order inthe California Court of Appeal. Plaintiff
alleges that these proceedings are ongoing. Nevertheless, Plaintiff
brings this action against Superior Comi Judge Mark Borenstein
("Borenstein") and Los Angeles County Sheriff James McDonnell
("McDonnell") (collectively, "Defendants") seeking an injunction that
would stay enforcement of the contempt order. Plaintiff also seeks
declaratory judgment that the state court proceedings against him
violated his due process rights.
Plaintiff is the attorney of record for the plaintiff in an ongoing
state court matter captioned as United Grand Corp . v. Malibu
Hillbillies, LLC, No. BC 554172 (L.A. Super. Ct. Aug. 8, 2014) ("United
Grand"). Defendant McDonnell is a Los Angeles County Sheriff in
charge of detentions for civil contempt cases. Defendant Borenstein is a
judge in the Superior Court....
Plaintiff assertss that Defendant Borenstein fabricatedthe
record to impose sanctions against Plaintiff. Plaintiff further alleges
that Defendant Borenstein; the Court Counsel for the Superior Court;
Judge Elizabeth Grimes, who sits on the Second District of the
California Court of Appeal; and several other judges are a pati of a

16
wide-ranging conspiracy within the Superior Comi to punish and
disbar Plaintiff. (Id.)
When Plaintiff did not pay the sanctions, Defendant Borenstein
held Plaintiff in contempt and ultimately sentenced him to
imprisonment lmtil he complied with the sanction orders. (FAC ^45 .)
On April 12, 2018, Plaintiff petitioned the Second District of the
California Court of Appeal for (1) writ of mandate, (2) writ of habeas
cmpus, and (3) an immediate stay ofthe contempt order. (FAC 59-61.)
On April 23, 2018, the Court of Appeal denied Plaintiffs request
for an immediate stay of the contempt order, and the
California Supreme Court denied review of Plaintiffs petition
for an immediate stay ofthe contempt order on April 25, 2018.
(FAC f 59.) The petition for writs of mandate and habeas
corpus remain ongoing in the Court of Appeal. (Id.)
[Docket #70 at 1-2 (bold emphasis added), App. J J2-J3]
Judge Klausner held that Younger abstention applied. He addressed the
extraordinary circumstances and biased tribunal exceptions by holding that the
former only applied to challenges of statutes, and the latter only applied if the bias
arose from a financial interest. [18-5663 Docket #70 at 3-4, App. J 4-5.] However,
he also found that as to the stay request, the Rooker-Feldman doctrine applied
because it was a final resolution. Id. at 4, J5.
Because no judgment of dismissal was entered, Sanai filed a motion to amend
the order of dismissal, for a new trial, and a preliminary injunction combined with a
request to enter judgment. [18-5663 Docket #71-2.]
Judge Klausner entered a judgment of dismissal on January 25, 2019.
[Docket #87.] He also entered an order denying the motion to vacate or amend the
dismissal order, providing a THIRD rationale for dismissing the complaint that
differed materially from the prior two explanations, the Rooker-Feldman doctrine:
Plaintiff contends it is entitled to relief under Rule 60(b) because
the Court made several errors in the Dismissal Order.... Upon

17
reconsideration, the Court finds that the Dismissal Order contained
certain oversights.
Nevertheless, after further review of relevant case law, the
Court now finds that the Rooker-Feldman doctrine applies- albeit for
different reasons than in the Dismissal Order-and prevents the Court
from exercising jurisdiction over Plaintiffs entire case. The Court need
not therefore address Plaintiffs additional arguments.
[18-5663 Docket #86 at 2-5.]
With judgment entered on January 25, 2019, Sanai filed a motion to vacate
the judgment on February 21, 2019, along with renewed motions for preliminary
injunction. [18-5663 Docket #88.] The motions were denied on the merits on March
26, 2019. [18-5663 Docket #104, App. G.] A notice of appeal, which was
immediately amended due to an error, was filed on April 15, 2019. [18-5663 Docket
#105-6.]
2.

The Appellate Proceedings

Sanai filed a motion to recuse Ninth Circuit judges on the same grounds
articulated in Sanai v. Staub, along with a request for judicial notice. App. N-O.
In its decision, the Ninth Circuit rejected the contention that Rooker-Feldman
applied, but agreed with the trial court that the judicial bias exception only applies
if there is a financial interest bias in the case, and no other reason.

18

WHY THE PETITION SHOULD BE GRANTED
A. The Ninth Circuit Court of Appeals’ Refusal to Recognize a Duty of
Disclosure Conflicts with the Published Decisions of the Sixth,
Seventh, Eleventh and Federal Circuits.
The refusal of judges in the Ninth Circuitto disclose relevant information
such as the current relationship with a witness or attorney of another party is in
conflict with the unanimous views of every other circuit to have addressed the issue.
The Sixth and Eleventh Circuit have found such a duty to exist:
We believe instead that litigants (and, of course, their attorneys)
should assume the impartiality of the presiding judge, rather than
pore through the judge’s private affairs and financial matters.
Further, judges have an ethical duty to “disclose on the record
information which the judge believes the parties or their lawyers
might consider relevant to the question of disqualification.” Porter v.
Singletary, 49 F.3d 1483, 1489 (11th Cir. 1995). . . . [The judge]
possibly did not consider the matter sufficiently relevant to merit
disclosure, but his non-disclosure did not vest in [the parties] a duty
to investigate him.
Am. Textile Mfrs. Inst., Inc. v. Limited, Inc., 190 F.3d 729, 741 (6th Cir. 1999).

The Seventh Circuit has agreed that the obligation to uncover conflicts and
disclose them is on the jurist. Ceats, Inc. v. Continental Airlines, Inc., 755 F. 3d
1356 (Fed. Cir. 2014) (magistrate judge has duty to disclose relationship with law
firm under obligations analogous to 28 U.S.C. §455). This obligation, the Seventh
Circuit has ruled, includes an obligation to disclose matters in the public record:
The onus is on the judge to ensure any potentially
disqualifying information is brought to the attention of the litigants.

19
28 U.S.C. § 455(c) ("A judge should inform himself about his personal
and fiduciary financial interests."))’ see also Liljeberg u. Health Serus.
Acquisition Corp., 486 U.S. 847, 873 n. 9, 108 S.Ct. 2194, 100 L.Ed.2d
855 (1988) (" [N]otwithstanding the size and complexity of the
litigation, judges remain under a duty to stay informed of any
personal or fiduciary financial interest they may have in cases over
which they preside."). It would be unreasonable, unrealistic and
detrimental to our judicial system to expect litigants to investigate
every potentially disqualifying piece of information about every judge
before whom they appear. "[Ljitigants (and, of course, their attorneys)
should assume the impartiality of the presiding judge, rather than
pore through the judge's private affairs and financial matters.... 'Both
litigants and counsel should be able to rely upon judges to comply
with their own Canons of Ethics.’" Am. Textile Mfrs. Inst., Inc. v.
Limited, Inc., 190 F.3d 729, 742 (6th Cir.1999) (quoting Porter u.
Singletary, 49 F.3d 1483, 1489 (11th Cir. 1995)).
Listecki u. Official Comm, of Unsecured Creditors, 780 F.3d 731, 750-1 (7th
Cir. 2015).
This Court has not directly addressed this issue. However, the practice of
this Court’s justices has been to address motions for recusal with disclosure, and to
disclose reasons for recusal when not obvious. Cheney v. U.S. Dist. Ct. for D.C., 541
U.S. 913 (Scalia, J.); S. Harris, Letter to Counsel in Colorado Department of State v.
Micheal Baca, et al. (March 10, 2020) (explaining recusal of Justice Sotomayor
based on friendship with party).
Sanai requested disclosure of the current relationship between Klausner and
Frederic Bennett in this case and the other cases. Under relevant federal
precedent, a prior attorney-client relationship between a judge and a party or
witness is grounds for recusal. Smith v. Sikorsky Aircraft, 420 F.Supp. 661 (C.D.CA
1976); Atkinson Dredging Co. v. Henning, 631 So.2d 1129 (Fla C. A. 1994);
Potashnick v. Port City Const. Co., 609 F. 2d 1101 (5th Cir. 1980). Judge Klausner

20
refused to disclose in this case, as in the other two lawsuits, Sanai v. Staub and
Sanai v. McDonnell.
Similar results have occurred in cases prior to Smith. See, e.g. Texaco v.
Chandler, 354 F.2d 655 (10th Cir.1965) (judge disqualified opposing counsel
simultaneously representing judge in his judicial capacity in unrelated lawsuit);
Rapp v. Van Dusen, 350 F.2d 806 (3d Cir. 1965 en banc) (judge disqualified when
previously represented by opposing counsel in his judicial capacity).
The disclosure requested of the appellate judges focused on their past and
any ongoing relationship with former Chief Judge Kozinski; their knowledge of the
sexual harassment by Judge Kozinski and the late Judge Reinhardt; and their
participation in the unsuccessful effort to disbar Sanai. App. M-O. None of Judges
answered these questions, even though the involvement of the Judge Tashima and
Bybee in the affairs of the Ninth Circuit Judicial Council, and Judge Watford’s
relationship with former Judge Kozinski were matters relevant to the appearance
or lack of appearance of impartiality under 28 U.S.C. §455.
B. The Ninth Circuit Court of Appeals History of Enabling Open Sexual
Harassment Requires Imposition of a Duty of Disclosure to Protect
Whistleblowers and Judicial Employees.
For more than two decades, former Chief Judge of the Ninth Circuit Alex
Kozinski sexually harassed and hazed his clerks, colleagues and third parties
within his judicial chambers, the courthouses, and in public view. This was no
secret, as one former Ninth Circuit magistrate judge explained:
A distinct minority of judges behaving outside the norms with the
silent acquiescence of the judiciary is reminiscent of the recent judicial
sexual harassment scandal. Then, as here, some judges were aware of
a minority of colleagues in their midst engaged in offending conduct—

21
yet said and did nothing. Because of their silence, sexual harassers
harmed more victims, and the judiciary’s reputation was stained when
the scandal finally exploded.
J. Donohue, “I Was a Federal Judge. My Former Colleagues Must Stop Attending
Federalist Society Events,” Slate.com, November 12, 2019, found at slate.com/newsand-politics/2019/ll/federalist-society-federal-judges-unethical.html (underlined
passage links to a story about Judge Kozinski’s sexual harassment).
Though Sanai had publicly accused Judge Reinhardt of participating in
Judge Kozinski’s misconduct, former Magistrate Judge Donohue’s article was the
first public acknowledgement that Judge Kozinski’s misconduct was not a solo
affair. Sanai’s two motions for disclosure filed with the Ninth Circuit set out this
sorry tale; the next six paragraphs are taken from App. M, Sanai Decl. at M22-M48;
App. N at N23-N51.
One of Kozinski’s most potent tools for sexual harassment was pornographic
videos he streamed directly from pornographic websites on the Internet, and when
that proved too risky, from a server he set up in his home and which he accessed
with his computers in his chambers. From no later than 1998 the members of the
Ninth Circuit Judicial Council had become aware of Kozinski’s improper use of the
Internet and Kozinski’s abuse of his clerks. However, rather than rein Kozinski in,
at every step of the way the Judicial Council sought both the enable his access to
pornography while concealing its knowledge of what Kozinski was using it for. By
2001 the issue had burst out in the open, thanks to Kozinski’s shutting down a
firewall blocking Internet access, and his picking a public fight with L. Ralph
Mecham , then the head of the Administrative Office of the United States Courts.
The matter even spilled into a Congressional hearing.

22
Kozinski won the battle over unfettered access to pornography, in that the
Judicial Conference agreed to stop tracking the identity of the large video files that
were downloaded over the Ninth Circuit’s Internet system, but Kozinski came to
understand that there was no way to conceal or block system administrators from
accessing his history of the pornography sites he visited from the Ninth Circuit’s
internal network. Around 2002, Kozinski set up a server at his home on which he
placed his carefully curated pornography that he accessed via his computer in his
chambers. At this point, the primary purpose of accessing the porn was to haze and
sexually harass his female clerks. In 2005 Sanai discovered a different misuse by
Kozinski of this server, and filed a judicial misconduct complaint against Kozinski.
A year later, Judge Kozinski’s predecessor as Chief Judge, Marie Schroeder, issued
an order dismissing the complaint based on the fake finding of fact that Kozinski
apologized for his misconduct; she also found that there was no evidence of the
existence of this server or the documents on it.

Sanai eventually discovered that

the reason for Schroeder’s denial of its existence was, as Schroeder and the
members of the Ninth Circuit Judicial Council knew, that Kozinski was using it to
stream pornography into his chambers, and the Ninth Circuit Judicial Council (on
which Kozinski served) intended to enable this conduct. Realizing that the Ninth
Circuit Judicial Council would never take action, Sanai blew the whistle on
Kozinski through the Los Angeles Times.
However, in a surprise move, Chief Justice Roberts ordered that the
complaint, and any other complaint covering the same subject matter, be
transferred to the Third Circuit Judicial Council. The Ninth Circuit Judicial
Council refused to transfer the pending complaint because it stated it was

23
unrelated, but then stayed it because it found that it was in fact related to the
transferred complaint.
Both Sanai and Mecham filed misconduct complaints against Kozinski for his
pornographic misconduct. The Third Circuit stated that the complaints had to be
filed with the Ninth Circuit Judicial Council, and then transferred. When the
complaints were filed with the Ninth Circuit Judicial Council, it violated Justice
Roberts’ order and refused to transfer Sanai’s complaint because it found, that as to
Sanai only, “exceptional circumstances did not exist”, even though it covered the
same subject matter as Kozinski’s complaint against himself. Sanai contacted the
this Court, and the Clerk stated that Justice Roberts’ order transferred jurisdiction
of any complaint involving Judge Kozinski’s pornography to the Third Circuit
Judicial Council.
Because Sanai was excluded from participating in the Third Circuit
proceedings, the result was a whitewash. In particular, based on Kozinski’s
testimony under penalty of perjury that he had never shown the contents bf his
porn server to anyone else, the Third Circuit Judicial Council found “credible” that
Kozinski had not shown his pornography collection to any else. See In re Kozinski,
Docket No. 03-08-90030, Third Circuit Judicial Council, June 5, 2009. In fact, the
members of the Ninth Circuit Judicial Council knew this to be false, and Sanai
directly alleged otherwise and could have shown how it would be proved. Kozinski’s
false testimony constituted criminal perjury and judicial misconduct warranting
impeachment and removal. It would also constitute grounds for him to be disbarred
as California attorney. After Kozinski’s wrist was slapped, Kozinski issued press
released claiming vindication. Sanai’s misconduct complaints were then assigned to

24

Judge Reinhardt, who found Judge Kozinski innocent and the allegations against
Judge Kozinski’s enablers barred. He recommended sanctions, and the Judicial
Council censured Sanai and sought his disbarment. That turned out to be an epic
fiasco, and resulted in Sanai learning the history of Elizabeth Grimes’ simultaneous
efforts, in concert with Kozinski, to secretly disbar Sanai after he succeeded in
having her thrown off a case, as discussed above.
Two years after the Judicial Council’s efforts to disbar Sanai collapsed,
Kozinski’s sexual harassment misconduct was laid bare by The Washington Post.
M. Zapotosky, “Prominent appeals court Judge Alex Kozinski accused of sexual
misconduct,” The Washington Post, Dec. 8, 2017; M. Zapatosky, “Nine more women
say judge subjected them to inappropriate behavior, including four who say he
touched or kissed them,” The Washington Post, December 15, 2017. Because Judge
Kozinski had stated under oath that he had never shown the contents of his
pornography server in the Third Circuit Judicial Council proceedings, the stories,
which included statements by former Kozinski and O’Connor clerk Heidi Bond that
Kozinski had shown her such content, made his position on the Ninth Circuit
untenable, and Kozinski resigned after judicial misconduct proceedings were
initiated and transferred by Justice Roberts. In Re Kozinski, 2d Circ. Jud. Council,
Dock. No. 17-90118-jm, February 5, 2018. Sanai then filed a lawsuit against
Kozinski and, among others, the members of the Judicial Council who enabled his
misconduct by retaliating against those who exposed his wrongdoing. See App. O
The scandal resulted in the appointment of a “working group” to review
federal court rules and policies regarding sexual harassment. Notably the two

25
persons who had blown the whistle on Kozinski a decade ago, Sanai and Mecham,
were ignored.
Last year, the House Subcommittee on the Courts revisited this issue when
Kansas District Court Judge Murguia was the subject of a reprimand by the Tenth
Circuit Judicial Council for sexual harassment that was derided by the legal
community and Congress. See In Re Murguia, Tenth Judicial Council Order 10-1890022. issued'a letter to the Tenth Circuit and requested representatives of the
Judicial Council to appear. When they refused, the House Subcommittee used the
scheduled hearing to put on testimony by a clerk of the late Judge Reinhardt to
document his sexual harassment, which was in part his apoplectic reaction to the
exposure of his friend Kozinski. See, e.g. C. Demondson, “Former Clerk Alleges
Sexual Harassment by Appellate Judge”, N.Y. Times, February 14, 2020 at A-22. (“I
was scared,” Ms. Warren, a graduate of Harvard Law School, testified on Thursday,
“scared of offending the judge and alienating his powerful network of clerks, scared
of ending my legal career before it had even begun, scared that the judge would
exact revenge on me.”)
The fears expressed by Ms. Warren were rational and warranted. The
treatment of Petitioner Sanai; the behind the scenes comments of Judge Reinhardt
disclosed by Ms. Warren; and the resignation of Judge Murguia soon after the
hearing in the face of questions about protection against his retaliation all
demonstrate that whistleblowers require a rule of transparency that forces judges
who are friends of the subjects of whistleblowing and legitimate accusations of
misconduct to disclose their past and ongoing relationship with such disgraced
jurists. In this case, Judge Watford is part of the “powerful network of clerks” who

26
doubtless have been alienated by Sanai’s actions against Kozinski, and who should
provide disclosure, at a minimum, of their ongoing relationship with the disgraced
jurists. Without this and other protections, sexual harassment and other abuses by
federal judges will continue.
Had the COVID-19 crisis not erupted soon after the House Subcommittee
hearing in February of 2020, other proceedings were planned to focus on the
ongoing problem of judicial misconduct. The press is laser-focused as well. Sanai’s
lawsuit against Kozinski and his enablers has received extensive coverage in the
legal press. Other reporters are looking into judicial misconduct generally; for
example earlier this month Reuters published a series analyzing state judicial
misconduct regimes, “The Teflon Robe”. See M. Behrens & J. Shiftman, “The Teflon
Robe, Reuters, June 30, 2020, found at www.reuters.com/investigates/section/usajudges/. Public attention on judicial misconduct has never been greater, and it is
clear that the once the legislative calendar returns to normal, Congress will be
taking another look at judicial discipline, which could involve removing the
judiciary completely from the process.
The history of the misconduct of Judge Kozinski and Judge Reinhardt
demonstrates that the threat and reality of judicial retaliation, and the absence of
transparency in the area of judicial ethics and conflict of interest, is perhaps the
strongest protector of judicial misconduct in the federal system. This Court should
thus grant review to vindicate the law mandating judicial transparency and barring
conflicts of interest, real or apparent, that prevail in state and federal courts other
than the Ninth Circuit.

27
B. The Panel Decision Conflicts with the Published Ninth Circuit
Decisions Regarding Younger Abstention.
The panel dismissed Sanai v. Borenstein under Younger abstention. App. B.
However, Younger abstention cannot be grounds for dismissal of a lawsuit alleging
state court judicial bias because of this Court’s authority establishing that an
unconstitutional risk of bias by a trial or reviewing court (see Caperton, supra)
creates an exception to Younger abstention even if it would otherwise apply.
The panel in this case cited Gilbertson v. Albright, 381 F.3d 965 (9th Cir. 2004)
for the standards of invoking Younger abstention which are:
the proceeding must be pending when the federal action is filed, it must be
in the nature of a judicial proceeding that implicates important state
interests (akin to those involved in criminal prosecutions), and it must
afford the federal plaintiff an adequate opportunity to present his federal
constitutional challenges.
Gilbertson, supra, at 975.
However, published Ninth Circuit authority recognizes that to meet the state
interest exception, a plaintiff must be seeking to change existing state law. A
lawsuit which asserts and as-applied challenge does not meet this standard set out
by this Court. This was explained in AmerisourceBergen v. Roden, 495 F.3d 1143
(9th Cir. 2007), where the Ninth Circuit analyzed what it means to say that
important state interests are implicated in a lawsuit for purposes of Younger
abstention:
The Supreme Court has noted that states "have important interests in
administering certain aspects of their judicial systems," and that, in
particular, states have an interest in "enforcing the orders and
judgments of their courts." Pennzoil, 481 U.S. at 12-13, 107 S.Ct. 1519.
Taken out of context, these statements suggest that California's
interest in enforcing the judgment in this particular case is of

28
sufficient importance to meet Younger's second threshold
element. But we have made it clear that "[t]he importance of the
[state's] interest is measured by considering its significance broadly,
rather than by focusing on the state's interest in the resolution of an
individual case." Baffert v. Cal. Horse Racing Bd., 332 F.3d 613, 618
(9th Cir.2003); see also Champion Int'l, 731F.2d at 1408 ("[A]
challengeQ[to] only one ... order, not the whole procedure" is "not a
substantial enough interference with [a state's] administrative and
judicial processes to justify abstention.").
Accordingly, binding precedent prevents the court from finding that
California's interest in enforcing this one particular judgment — as
opposed to a state's wholesale interest in preserving its procedure for
posting an appeal bond, see Pennzoil, 481 U.S. at 12-14, 107 S.Ct. 1519,
or its interest in retaining a particular contempt of court scheme, see
Juidice v. Vail, 430 U.S. 327, 330, 335, 97 S.Ct. 1211, 51 L.Ed.2d 376
(1977) — qualifies as sufficiently "important" to satisfy Younger's
second threshold element.
AmerisourceBergen, supra, at 1150 (bold emphasis added).
As stated in AmerisourceBergen, “binding precedent prevents the court from
finding that California's interest in enforcing this one particular judgment — as
opposed to....its interest in retaining a particular contempt of court scheme, see
Juidice v. Vail, 430 U.S. 327, 330, 335, 97 S.Ct. 1211, 51 L.Ed.2d 376 (1977) —
qualifies as sufficiently "important" to satisfy Younger's second threshold element.”
Id.

AmerisourceBergen and the cases it cites are “binding precedent [that]

prevents the court from finding that California’s interest in enforcing” the sanctions
order at issue in this case “qualifies as sufficiently "important" to satisfy Younger's
second threshold element.” Id. Exactly like the district court that was reversed in
AmerisourceBergen, the panel in this case has “taken out of context” the Supreme
Court’s statements “recognizing important state interest in the contempt process”.
As the published AmerisourceBergen opinion pointed out, “Taken out of context,

29
these statements suggest that California's interest in enforcing the
judgment in this particular case is of sufficient importance to meet
Younger's second threshold element. But we have made it clear that "[t]he
importance of the [state's] interest is measured by considering its significance
broadly, rather than by focusing on the state's interest in the resolution of an
individual case." AmerisourceBergen, supra, at 1150 (bold emphasis added).
Sanai in no way sought to alter the procedures, statutes, or recognized
California Supreme Court case law on these points. Thus the citations of Judges
Tashima, Watford, and Bybee to Juidice v. Vail, 430 U.S. 327 (1977) did not support
its decision. In Juidice,
Appellee Harry Vail, Jr., is a judgment debtor who was held in contempt
of court by the County Court of Dutchess County, N. Y., and who
thereafter sought to have the statutory provisions authorizing contempts
enjoined as unconstitutional in an action brought under 42 U. S. C. § 1983
in the United States District Court for the Southern District of New York.
The state-court proceedings against Vail were found by the District Court
to be in most respects representative of those against the other named
appellees as well.
Juidice,, supra at 328-9.
Because Sanaiwas not seeking “to have the statutory provisions authorizing
contempt enjoined as unconstitutional”, this Court’s holding in Juidice was
irrelevant under the binding interpretation of AmerisourceBergen, supra. In
Juidice, the litigants sought to enjoin the application New York state contempt
procedures generally. Nothing like that was sought by Sanai. AmerisourceBergen
and Miofsky considered and rejected the panel’s interpretation of Juidice and
Gilbertson. Because the panel’s decision directly conflicts with the correct analysis

30
of Juidice articulated in AmerisourceBergen, granting the petition for review is
merited.
The panel decision cited Juidice, supra, as grounds for application of
Younger. However, the panel decision actually conflicts with the decision and a
decision cited therein, Gibson v. Berryhill, 411 U. S. 564, 577 (1973). Juidice
explicitly held that for Younger to apply, the litigants must be accorded “an
opportunity to fairly pursue their constitutional claims in the ongoing state
proceedings, Gibson v. Berryhill, 411 U. S. 564, 577 (1973)”. Id. at 337. As this
Court explained in a different decision,
Gibson v. Berryhill, 411 U. S. 564, supplied another example of such
"extraordinary circumstances." In that case the Court found it
unnecessary to decide whether the rule of Younger u. Harris applies
with the same force when state civil, rather than criminal,
proceedings are pending because "the predicate for a Younger v.
Harris dismissal was lacking .... [T]he appellees alleged, and the
District Court concluded, that the State Board of Optometry was
incompetent by reason of bias to adjudicate the issues pending before
it. If the District Court's conclusion was correct in this regard, it was
also correct that it need not defer to the Board." 411 U. S., at 577.
Kugler v. Helfant, 421 U.S. 117, 125, fn. 4 (1975).
Here Sanai explicitly and in detail alleged actual bias and unconstitutionally
high risk of an absence of impartiality. As to Defendant Borenstein, he alleged that
Sanai was denied his right to stay the enforcement of the
original sanctions order based on the intentional refusal, based on
animus against Sanai by both Borenstein and Grimes, to grant him
equal protection of the law, in violation of Village of Willowbrook v.
Olech, 528 U. S. 562 (2000).
[18-5663 FAC 1(69 Docket #41 at 29-30].

31
Sanai is guaranteed due process at the appellate level as well. Here, one of
the Court of Appeal justices who participated in the litigation, Elizabeth Grimes, as
been on a decades-long vendetta against Sanai. [See Motion for Prelim Inj. Exh. J,
18-5663 Docket #4-6]. These allegations did not go unnoticed by the trial court, as it
wrote that:
Plaintiff asserts that Defendant Borenstein fabricated the record
to impose sanctions against Plaintiff. Plaintiff further alleges that
Defendant Borenstein; the Court Counsel for the Superior Court;
Judge Elizabeth Grimes, who sits on the Second District of the
California Court of Appeal; and several other judges are a part of a
wide-ranging conspiracy within the Superior Court to punish and
disbar Plaintiff. (Id.)
[18-5663 Docket #70 at 1-2, App. J at J2-J3.]
It is clear that Sanai alleged an actual and apparent absence of impartiality
to an unconstitutional degree in great detail. Under Gibson v. Berryhill, as cited in
Juidice, these allegations (which were required to be accepted as true) constituted
an exception to the application of Younger abstention under United States Supreme
Court authority, which the Ninth Circuit panel clearly got wrong.

32

CONCLUSION
For the forgoing reasons, the petition for certiorari should be granted.
Dated this January 20, 2021
Respectfully submitted,

Cyrus Sanai
Sanais
9440 Santa Monica Blvd.
#301
Beverly Hills, CA 90212
(310) 717-9840

